                               SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-14-03A                                   Office of Inspections                                  February 2014




                             Inspection of Embassy
                              Budapest, Hungary




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

      Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

      Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

      Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

        In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
circulated, reviewed, and compiled the results of survey instruments; conducted on-site interviews;
and reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Robert B. Peterson
                                              Assistant Inspector General for Inspections




                                        ii
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


                                Table of Contents
Key Judgments                                                                              1
Context                                                                                    2
Executive Direction                                                                        3
  Strategic Planning and Direction                                                         3
  Morale, Workplace, and Security Issues                                                   4
  National Security Decision Directive 38 and Rightsizing                                  4
  First- and Second-Tour Staff Mentoring and Professional Development                      4
  Hungarian Language Training                                                              5
Policy and Program Implementation                                                          6
  Political/Economic Section                                                               6
  Environment, Science, Technology, and Health Regional Hub                                8
  Public Affairs Section                                                                  10
  Innovative Practice: Ambassador’s Public Diplomacy Strategic Plan–Electronic Calendar   10
  Consular Management                                                                     13
Resource Management                                                                       15
  General                                                                                 15
  Financial Management                                                                    16
  Human Resources                                                                         19
  General Services                                                                        20
  Facilities Management/Safety, Health, and Environmental Management                      23
  Information Management                                                                  23
  Innovative Practice: Arrivals and Departures Collaboration Database                     26
Quality of Life                                                                           26
  Health Unit                                                                             26
  Community Liaison Office                                                                26
  Employee Association                                                                    27
Management Controls                                                                       27
List of Recommendations                                                                   28
List of Informal Recommendations                                                          31
Principal Officials                                                                       33
Abbreviations                                                                             34




                                     iii
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Key Judgments
   The chargé d'affaires effectively leads a collegial and active country team and is preparing
    carefully for the arrival of a new Ambassador.

   Embassy Budapest has a good strategic plan developed by the country team with priorities
    appropriate for the complexities of U.S.–Hungary bilateral relations. The public affairs
    section effectively reflects these priorities in its work, but other sections should develop
    reporting, representation, and travel plans in line with these priorities.

   The political/economic section is operationally effective, provides solid support to the chargé
    d’affaires and actively pursues the U.S. policy agenda in Hungary. The section should
    expand the breadth of its reporting and provide more analysis.

   As the environment, science, technology and health hub unit in Budapest covers 20 countries
    in Europe and the Caucasus, it should operate independently of other embassy sections and
    receive adequate funding for travel.

   The management section delivers adequate services to its customers but could perform more
    effectively by improving decisionmaking, eliminating unnecessary steps in routine processes,
    and enhancing collaboration.

   Embassy Budapest’s consular section delivers visa and American citizens services
    courteously and professionally. A rightsizing and restructuring process in the past year has
    significantly lowered locally employed consular staff morale; however, the embassy should
    develop a plan to clarify and stabilize job responsibilities over the next 18 months, which
    should help restore section morale.

   The information management section is technically proficient and responsive to customers
    but is not adequately planning for extension of the communications network infrastructure
    into the new expanded chancery building.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between September 5 and 27, 2013, and in
Budapest, Hungary, between October 24 and November 8, 2013. Ambassador Kenneth Brill
(team leader), Laurent Charbonnet (deputy team leader), Robert Eckert, Ellen Engels, Brett
Fegley, Darren Felsburg, Ralph Kwong, Brian Mohler, Mary Monica O’Keefe, Colwell
Whitney, and Timothy Williams conducted the inspection.




                                        1
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Context
        Hungary, population 10 million, became independent in 1918 and fell under Soviet
domination following World War II. As Hungary left the Soviet orbit in the late 1980s, the
United States offered assistance and expertise to revise its constitution, establish a democratic
political system, and promote a free-market economy. Hungary acceded to the North Atlantic
Treaty Organization (NATO) in 1999 and the European Union in 2004. It is not a member of the
Euro zone. Hungary has been an active partner of the United States on post-9/11 security issues.
Despite its small military, Hungary contributed troops to NATO missions in Afghanistan and the
Balkans, and also had troops in Iraq. The United States provides modest bilateral security
assistance.

        Hungary has transitioned from a centrally planned to a market-based economy since
1989. The United States has been the top non-European investor because of Hungary’s central
location in Europe, access to European Union markets, highly skilled and educated work force,
and sound infrastructure. Recent changes in the investment climate, however, have made
Hungary less attractive to U.S. firms, some of whom have left the country. Despite rapid growth
in the mid-2000s, Hungary needed an International Monetary Fund and European Union bailout
after the 2008 fiscal crisis. After contracting by 1.7 percent last year, the economy is expected to
grow by less than half a percentage point in 2013.

        Prime Minister Orban’s center-right Fidesz party swept to power in 2010 with a landslide
victory, capturing more than two-thirds of the seats in Parliament. Citing this electoral mandate,
the Orban Government has enacted wide-ranging legislative and constitutional changes, often
with minimal debate. Few areas of Hungarian public and economic life are unaffected by the
government’s drive to recentralize executive authority and cement the ruling party’s hold on
power. Opposition parties, civic organizations, and the international community, including the
United States and European Union, are concerned that these changes weaken governmental
checks and balances and erode the independence of the judiciary, media, and the Central Bank.
Orban has countered with appeals to Hungary’s national pride and its sense of historical
victimization, fostering an atmosphere in which episodes of racism, anti-Semitism, and
xenophobia occur. Fidesz is expected to win the 2014 election, albeit with a reduced majority.

       Orban’s approach to governing makes Hungary a complicated bilateral partner. While the
United States is concerned about the undermining of Hungary’s internal checks and balances, it
has been difficult to challenge a popularly elected government. Meanwhile, Hungary’s
cooperation with the United States in military and security affairs remains solid, and they
continue to cooperate on intelligence, counterterrorism, and nonproliferation issues. Budapest is
home to the U.S.-supported International Law Enforcement Academy for training police officers
from the region. A policy review of the bilateral relationship is likely in the coming months.

        Embassy Budapest employs 95 Americans and 232 locally employed (LE) staff members,
servicing five agencies. Total mission funding for FY 2013 was $17.5 million, which includes
Department of State (Department) funding of $11.5 million and excludes U.S. direct-hire
salaries. Total bilateral assistance for FY 2013 was $1.8 million.



                                         2
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Executive Direction
       Embassy Budapest is well managed and productive, led by a talented chargé d'affaires
(CDA), who arrived in August 2013. The CDA is serving in his first deputy chief of mission
(DCM) assignment and gained limited experience as a CDA in his last overseas assignment. The
previous Ambassador left in July, and the nomination of a new Ambassador had just been
announced at the end of the inspection.

Strategic Planning and Direction

        The United States’ complicated relationship with Hungary requires that the embassy have
clear strategic goals and good internal and external communications. Embassy Budapest’s
excellent Integrated Country Strategy (ICS) outlines clear priority goals and a limited set of
objectives for each goal. The strategy was developed through an inclusive country team process
led by the former DCM.

        The embassy has a dynamic outreach strategy, but the embassy speakers program should
involve more than the embassy front office. The CDA and the public affairs section are working
to rejuvenate a missionwide speakers program.

        The CDA runs a well-balanced series of group and one-on-one meetings of the collegial
and collaborative country team. The political/economic counselor is doing an excellent job as
acting DCM. Other agency chiefs express appreciation for the CDA’s support of their missions
and his accessibility. During the inspection, the CDA led the country team in managing
simultaneously and effectively a complicated visit by a senior official from Washington and
press reports related to Hungary based on material from WikiLeaks and Edward Snowden. The
CDA is leading the embassy in preparing for a new ambassador. On the policy front, he is
engaging Washington on policy issues a new ambassador must deal with and developing
relationships in Budapest with Hungarian officials and civil society.

         The embassy needs to do a better job of linking its day-to-day activities to its strategic
priorities. While the public affairs section tracks mission public events along a timeline and ties
them to mission goals, the embassy has no process to assess progress in meeting the ICS goals in
other types of activities and does not yet have mission reporting, travel, or representation plans,
although the CDA has directed the political/economic section to prepare a reporting plan.
Assessing progress will ensure the embassy meets its key priorities.

Recommendation 1: Embassy Budapest should establish a periodic process to assess and report
to the Bureau of European and Eurasian Affairs and the ambassador/chargé d'affaires progress
toward meeting the goals of the Integrated Country Strategy. (Action: Embassy Budapest)

       Informal Recommendation 1: Embassy Budapest should implement a missionwide
       reporting plan tied to its strategic priorities.

       Informal Recommendation 2: Embassy Budapest should institute a process for
       apportioning mission travel and representational funds to sections, based on section travel
       and representational plans approved by the deputy chief of mission and tied to the
       embassy’s strategic priorities.
                                               3
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 3: Embassy Budapest should relate the work requirements
       of all U.S. direct-hire staff to its strategic priorities.

Morale, Workplace, and Security Issues

        Embassy Budapest staff has good morale. U.S. direct-hire and LE staff gave the embassy
leadership team good marks for the CDA-led town hall meeting and other communications
related to the U.S. Government shutdown and furlough. The CDA has established a regular
series of meetings with the LE staff committee. American employees respect their LE colleagues
and value their work. There are no reports of harassment or discrimination, and the embassy has
appropriate numbers of American and LE Equal Employment Opportunity counselors. Inspectors
suggested a future town hall meeting should include a discussion of harassment and
discrimination and feature the American and LE staff counselors.

        The CDA meets regularly with the embassy’s security officer and chairs the emergency
action committee. He instructed the security officer to refine some emergency procedures based
on the recent experience of dealing with the discovery of unexploded World War II munitions
next to the chancery.

National Security Decision Directive 38 and Rightsizing

        The Bureau of Overseas Buildings Operations is overseeing a major construction project
that will consolidate all mission employees in an expanded chancery, except for those at the
embassy warehouse, and expand available office space. Once the construction project is
completed in 2014, the U.S. Agency for International Development (USAID) Office of U.S.
Foreign Disaster Assistance is seeking to expand its regional office in Budapest. The embassy
made an appropriate review of the proposal, which is currently awaiting action in the
Department. The combination of Budapest’s location and skilled labor force, and the embassy’s
new office space will produce requests for locating new regional operations in the embassy once
the construction project is completed. Inspectors suggested the embassy review and update its
National Security Decision Directive 38 procedures to prepare for such requests.

First- and Second-Tour Staff Mentoring and Professional Development

        Embassy Budapest has 11 first- and second-tour (FAST) employees. The CDA
appropriately serves as their rating or reviewing officer. Embassy Budapest has a “Professional
Development Policy for Junior Officers,” dated 2012, that provides an excellent basis for the
FAST mentoring and professional development program, with the DCM clearly in the lead.
There had been a hiatus in FAST-related activities because of turnover among FAST staff and
the embassy front office, over the summer transition period. The CDA told inspectors he will
pursue an active and structured FAST staff mentoring and professional development program in
the coming months. Inspectors suggested that the CDA revise and update the 2012 policy to
ensure it includes regular meetings on agreed topics and put information about the FAST staff
program on the embassy Web site to help current and prospective staff.




                                       4
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Hungarian Language Training

       For several years, Embassy Budapest has had an ongoing dialogue with the Foreign
Service Institute, School of Language Studies, about improving the quality of Hungarian
language training. The School of Language Studies responded to the embassy’s critiques and
made a number of improvements in the training program for this difficult, non-Indo-European
language. Nevertheless, officers continue to arrive without the skills to carry on professional
conversations in Hungarian and often use English with Hungarian interlocutors. Most officers
depend on LE staff for press briefings and to ensure they grasp the essentials of meetings
conducted in Hungarian. LE staff told the OIG team the Department’s Hungarian instruction
does not prepare officers to use the language in professional settings. Without doing a position-
by-position analysis, inspectors were unable to determine whether the main problem lay in
inadequate training quality or the embassy’s language designated positions being assigned too-
low language skill ratings. The Departmentwide 2014 Triennial Language Proficiency
Designation exercise provides an opportunity for the embassy to determine whether skills ratings
on Hungarian-language positions are set sufficiently high to allow officers to work effectively.

        Consular officers, who must use Hungarian on a daily basis, report that they arrive at the
embassy without the specific vocabulary needed to conduct business. Although there is a
consular module in the Hungarian language program, officers report it is based on consular terms
and practices from the 1990s. Consular officers also say that instructors “teach to the test,” which
tends to focus on political and economic issues, rather than vocabulary required to conduct visa
interviews, including family relations, legal matters, and business. New consular officers often
have to use LE staff as interpreters until they build vocabulary and skills to the required level.

Recommendation 2: Embassy Budapest, in coordination with the Foreign Service Institute,
School of Language Studies, should develop a plan to ensure that all officers arriving at the
embassy have the ability to carry out their duties at the designated skill level. (Action: Embassy
Budapest, in coordination with FSI)

Recommendation 3: Embassy Budapest, in coordination with the Foreign Service Institute,
School of Language Studies, should update the Hungarian consular module to reflect current
vocabulary and conversational skills. (Action: Embassy Budapest, in coordination with FSI)




                                        5
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Political/Economic Section

        Washington end users expressed satisfaction with the embassy’s political/economic
reporting. Officers’ portfolios and work requirements accurately reflect the mission’s ICS, and
the section plays a key role in achieving the embassy’s major ICS goals. A strong FS-01 political
counselor heads the section, which is divided into an economic unit, whose chief serves as the
deputy counselor, and a political unit. Of the section’s 10 American staff members, five, mostly
FAST officers, arrived in the 2 months preceding the inspection. Despite the sizable turnover, the
section operates smoothly and productively and cooperates exceptionally well with other
sections and agencies. The five LE staff members are experienced, provide excellent support,
and are important to the section’s reporting and outreach to Hungarian contacts.

        The counselor and the unit chiefs work hard to help the FAST officers get up to speed as
reporting officers. Weekly staff meetings are well managed; information flow is good. The
counselor meets daily with the CDA and, during the inspection, was serving as the acting DCM.
The staff appreciates the counselor’s open-door policy. Representation and travel funds are
sufficient, although they are not distributed according to a plan, nor explicitly linked to priorities
of the ICS.

         The section spends approximately 5 percent of its time handling visitors. During the last
year it supported 13 visits, including one at the assistant secretary level, two at the deputy
assistant secretary level, one Congressional delegation, and a Supreme Court Justice.

Reporting and Advocacy

        In the 9 months preceding the inspection, the political/economic section drafted roughly
100 political cables and 60 economic cables, with 50 of them reporting delivery of demarches.
For the most part, these cables are consistent with ICS priorities. Washington end users say they
eagerly read Budapest domestic political reporting to monitor actions by the current government
in the run-up to the 2014 parliamentary election. Washington praised the section’s reports on
human rights and international religious freedom.

        The section’s reporting is based on knowledgeable contacts in government, academia,
and the business community, though the embassy sends far more spot messages than analytic
reports. While the section covers some high-priority issues well, such as Syria chemical
weapons, human rights, rule of law, and energy, other important topics are covered only
occasionally. Reporting is limited on defense and security issues, a cornerstone of the bilateral
relationship. The embassy occasionally reports on evolving local attitudes toward the European
Union; Hungary’s external relations, including with Russia and China; and government efforts to
meet European Union targets to join the Euro currency zone. Reporting on these issues should be
expanded.

        Many messages contain insufficient analysis and insights, including biographic details of
significant interlocutors, which are the real value-added of good embassy reporting. In
preparation for the inspection, the section began developing a reporting plan, which could help

                                         6
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

plug gaps in reporting. The section sends informative daily activity summaries to Washington;
recently the section has begun to send these summaries, correctly, as record emails.

       Informal Recommendation 4: Embassy Budapest should expand the breadth and depth
       of its political/economic reporting to reflect the range of bilateral and regional issues of
       importance to Washington consumers.

Human Rights, Refugees, and Rule of Law

        The political unit drafts the annual Human Rights and Trafficking in Persons reports.
Political officers have pressed the Hungarian Government to oppose anti-Semitism actively and
publicly. The United States and the European Union also have told the current government that
constitutional changes it pushed through parliament erode the rule of law by impairing judicial
independence and threatening freedom of religion; some recent constitutional modifications have
addressed these concerns in a limited way. The political/economic and other embassy sections
have increasingly advocated for improving the rights of groups facing discrimination, including
women, Roma, and the lesbian, gay, bisexual, and transgender community. Three years ago, the
embassy began a Roma Fellowship program, by which young Roma students work in the
political/economic and public diplomacy sections, with housing and a stipend provided by the
embassy.

Counterterrorism Cooperation

        The political/economic section helps support U.S. counterterrorism efforts by delivering
technical assistance and border security training to the Hungarian Government through the
Department’s Export Control and Related Border Security program, and relaying U.S.
designations of terrorist financiers to local authorities. One officer focuses on Hungarian actions
to draft a comprehensive cyber security policy. Another covers counterproliferation and
counterterrorism finance issues. The legal attaché manages a program to help the Hungarian
police conduct biometric checks of immigrants and asylum seekers.

Law Enforcement Cooperation

       Law enforcement is a major embassy activity, with three Federal Bureau of Investigation
elements in Budapest: the legal attaché, who performs traditional legal liaison functions; a
Federal Bureau of Investigation task force on organized crime at the Hungarian police
headquarters; and the International Law Enforcement Academy in Budapest (funded by the
Bureau of International Law Enforcement and Narcotics Affairs), whose director is seconded
from the Federal Bureau of Investigation. The deputy director of the International Law
Enforcement Academy is a Diplomatic Security officer from the Department. The academy
provides law enforcement training for police officials from Europe and the Middle East and is
located in a facility provided by the Hungarian Ministry of the Interior. It trains between 1,000
and 1,500 officers a year. All Federal Bureau of Investigation elements report that they receive
excellent support from the embassy and effective coordination by embassy leadership. Officers
from the political/economic section help teach the human rights element of the police course.

     The chief of mission chairs the twice-yearly law enforcement working group, whose
membership includes all embassy law enforcement elements, the political/economic counselor,
                                        7
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

the consular chief, and law enforcement representatives stationed in Vienna, Frankfurt, and
Bucharest.

Trade and Business Promotion

        The U.S. Commercial Service has one officer at Embassy Budapest and a small support
staff. The political/economic section cooperates closely with the U.S. Commercial Service in
advancing U.S. business interests, including by participating in American Chamber of
Commerce events and providing political and economic insight to U.S. business visitors. U.S.
exports to Hungary rose 13 percent from 2011 to 2012, the last full-year figures available. The
political/economic section has worked with the Commercial Service in supporting a U.S.
company’s ongoing bid to supply equipment to expand Hungary’s nuclear power plant.
Cooperation between the two sections is collaborative and mutually supporting. An
economic/commercial working group, co-chaired by the economic unit chief and the commercial
counselor, promotes collaboration on intellectual property rights, tax reform, and energy issues.
The political/economic section is helping U.S. negotiators finalize a Social Security agreement to
eliminate dual taxation and fill in gaps in benefits for those who work in both the United States
and Hungary.

Assistance Programs

        In FY 2014, Hungary will receive $1.45 million in security assistance, largely Foreign
Military Financing and International Military Education and Training. No one in the
political/economic section is certified as a grants officer representative, but a political officer
participated in the development of the operational plan for the security assistance. The
Departments of State and Defense, and the embassy’s Office of Defense Cooperation monitor the
assistance.

Political-Military Affairs

        The political unit chief chairs a monthly political-military working group meeting to
coordinate activities of the Defense attaché office, the Office of Defense Cooperation, and other
sections as appropriate. All parties told the OIG team that coordination and information sharing
were excellent. The security relationship is expected to remain robust, as the Hungarian
Government increases its defense budget in the near future (after years of cutbacks), reforms its
military structure, and updates equipment to meet NATO interoperability goals.

        A political officer is responsible for Leahy vetting and coordinates with the regional
security officer, the Defense attaché, and the consular section. She has completed the relevant
training, as have two colleagues who serve as backups. During the last year, the embassy vetted
1,025 names for U.S.-sponsored military and security training. There were no negative reports.

Environment, Science, Technology, and Health Regional Hub

        Embassy Budapest hosts an environment, science, technology, and health (ESTH)
regional hub officer who covers 20 embassies in central and eastern Europe, the Balkans, the
Caucasus, and Hungary. Two capable LE staff members report to the FS-02 ESTH officer, who
arrived shortly before the inspection. The hub’s regional goals include fostering transborder
                                          8
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

water cooperation in regional river systems, strengthening environmental law enforcement, and
using transboundary environmental and health issues to promote security in the region. The
ESTH staff attends the political/economic counselor’s weekly staff meeting and has a
collaborative relationship with that section. The hub officer reports on large research and
development investments and shares information with the Commercial Service and the Office of
Defense Cooperation. When the regional USAID office closed in March 2013, regional disaster
management responsibilities were transferred to the ESTH officer.

       The ICS lists fighting environmental crime as part of the mission’s law enforcement
cooperation objective. The ESTH officer cooperates with the International Law Enforcement
Academy to deliver training sessions on environmental investigations and enforcement. He also
works with the U.S.-funded Regional Environmental Center north of Budapest, which assists in
the development of environmental nongovernment organizations and raises environmental
awareness. The U.S.-Hungary agreement for scientific and technological cooperation was signed
in 2010.

        The OIG team found confusion among staff about the relationship between the hub
officer and the political/economic section. The officer reported to the DCM until July 2013,
when supervision was transferred to the political/economic counselor. The offices of the hub
officer and the economic unit chief are colocated, and the embassy felt the unit should be
connected organizationally to the section with which it most cooperates. The hub, however, has a
regional focus and the hub officer is expected to spend 60-70 percent of his time on regional
issues or traveling.

        ESTH hub positions were established to be regionally focused, not to be part of an
embassy section that focuses on bilateral issues. The Embassy Budapest hub should not be
folded into the political/economic section. The hub officer’s performance is being reviewed
appropriately by an official in the Bureau of Oceans and International Environmental and
Scientific Affairs, but the DCM is not rating the officer, as is done at other embassies with ESTH
hub officers.

Recommendation 4: Embassy Budapest should return performance-rating duties for the
environment, science, technology and health hub officer to the deputy chief of mission. (Action:
Embassy Budapest)

        Resources are another challenge for the ESTH hub at Embassy Budapest. While the hub
officer is expected to travel throughout his region, the source of funding for that travel is murky.
An earlier hub officer had not traveled to some posts in the region for several years. Presently,
the hub’s travel funds are not a separate line item in the embassy’s budget.

Recommendation 5: Embassy Budapest, in coordination with the Bureau of Oceans and
International Environmental and Scientific Affairs and the Bureau of European and Eurasian
Affairs, should create a separate budget for the environment, science, technology and health
hub’s regional travel requirements. (Action: Embassy Budapest, in coordination with OES and
EUR)




                                         9
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Public Affairs Section

        The public affairs officer inspires her team to take initiative, develop new ideas, and
collaborate with other mission elements in support of mission goals. In addition to the section
chief, there are press officer, cultural affairs officer, regional English language officer, and 15 LE
staff positions. Under the previous ambassador and DCM, the public affairs officer had regular
weekly meetings with the front office. At the time of the inspection, the section chief continued
this practice with the CDA.

Strategic Planning

        The public affairs section contributed to defining, and helps implement, all ICS mission
objectives. Taking ICS implementation a step further, beginning in FY 2013, the public affairs
section initiated a strategic calendar chart for the entire fiscal year. The chart includes a space to
record the impact and followup for outreach events. The public affairs section has drafted the FY
2014 chart, a living document, with allowances for updates and new opportunities. Several
public events planned for October had to be cancelled due to the U.S. Government shutdown,
thus, the OIG team was unable to observe these activities.

Innovative Practice: Ambassador’s Public Diplomacy Strategic Plan–Electronic Calendar

Issue/Challenge: While all U.S. missions are required to draft an Integrated Country Strategy
(ICS), public events or projects are sometimes not coordinated across the mission, or specifically
tied to ICS goals/objectives.

Background: Schedules may conflict and there may not be enough advance notice to ensure
optimum press and social media coverage. There had been no mission coordinating point for all
public events and projects.

Innovative Practice: This strategic calendar is an electronic spreadsheet that tracks all mission
public events according to ICS goals, listing all planned projects, dates, venues, mission
goal/objective, and responsible mission section, with a social media plan for each item. All ICS
goals are listed at the top of each page, for easy reference.

Benefit: The public affairs section ensures that all mission public events represent a mission
goal/objective and are coordinated by schedule, contact person, and venue. Public diplomacy
plans can be amplified through media outreach, Web site, and social media. Additionally, the
strategic calendar is a useful management tool for the embassy front office and members of the
country team.

        In FY 2013, the public affairs section was part of a bureauwide pilot program, introduced
by the Under Secretary for Public Diplomacy, requiring a public diplomacy implementation plan
in a specific format tied to mission goals, citing cost estimates, and funding sources. The FY
2014 implementation plan was due to the Under Secretary’s office by October 31, 2013, but
certain changes in the software made it more difficult to complete, causing a delay in
submission. Much of the content, however, was already outlined in the Ambassador’s Public
Diplomacy Strategic Plan.

                                        10
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Section Management

        American and LE staff members on the public affairs team respect each other, share
ideas, and collaborate on projects. The section chief has included all employees in planning for
the projected 2014 move from the current separate facility to the new embassy building. As the
change coincides with the retirements of two long-time employees, the public affairs officer has
appropriately chosen this opportunity to reconfigure some responsibilities, emphasizing the
growing importance of social media.

       While Embassy Budapest has a speakers program for American employees, its existence
and procedures for participation are not widely known throughout the mission. A robust speakers
program could provide opportunities for outreach and let FAST employees gain experience.
During the inspection, the public affairs officer began to disseminate information about the
program more broadly and encourage participation from all mission elements.

       Informal Recommendation 5: Embassy Budapest should publicize the speakers program
       throughout the mission, post clear information online, and encourage all American staff
       to participate.

Grants Management

        The public affairs section managed over $300,000 in grants in FY 2013. Several LE staff
members have completed grants management training, bringing the total number of certified LE
grants officer representatives to five, all of whom now have those responsibilities in their
employee performance plans. Grants records are in good order. All programs are documented in
the Mission Activity Tracker.

Cultural and Exchange Programs

         The section uses cultural events and exchange programs to showcase American values.
All programs are tied to mission goals. The cultural affairs officer and his experienced staff also
manage effectively a network of five American Corners, partnering with well-chosen local
institutions to host American speakers, U.S. program alumni, English language clubs, and
American educational advising services. Corner events receive regular attention in the local print
and electronic media.

        A binational commission, including the public affairs and cultural affairs officers,
oversees the Fulbright program. The new executive director has energetically sought new and
joint funding for additional scholarships. The Fulbright office also hosts an American
educational advising center that offers various American standardized tests for admission to U.S.
universities.

Youth Outreach

       The Roma Fellowship program was created in 2009 to empower promising Roma
members of Hungarian society by exposing them to the everyday life of business at the embassy,
high-level meetings with Hungarian authorities, and English language courses. This year, a
graduate of the program was hired by the Hungarian Ministry of Human Resources.
                                       11
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

         In response to the February 2013 directive from the Office of Global Youth Issues, the
public affairs section established a U.S. embassy youth council of 10-15 Hungarian participants,
between the ages of 19-32, from diverse backgrounds. The council will function as an advisory
body on youth affairs for the ambassador and embassy staff, work with the public affairs section,
initiate in-country youth outreach programs, and design and implement civil society small grants
projects.

Press and Media

        The press officer and her staff produce media briefs and do quick turnarounds of media
reaction reports on target issues. The press officer and her staff are hardworking and effective.

Social Media

       The section effectively integrates social media into all aspects of programming,
employing appropriate social media platforms to convey targeted messages to Hungarian
audiences. All social media platforms are interlinked through tabs on the sites. The embassy
Facebook site, in English and Hungarian, with an average weekly reach in September 2013 of
more than 13,000 (a considerable audience for a country of this size), is the primary platform for
discussion, contests, polls, embassy events, tourism, and cultural news items. Aimed at an
audience of students and young professionals, it is the most useful tool for encouraging two-way
engagement.

        The embassy uses its Twitter feed to disseminate hard news items, such as official
statements and press releases, with links to transcripts and policy articles on the embassy Web
page. This platform is focused on media audiences, public administration professionals,
government policy makers, and opinion leaders. The Embassy Budapest Twitter account is the
sixth most popular among U.S. embassies within the Bureau of European and Eurasian Affairs.
Other platforms include a YouTube channel for video clips of embassy events and a policy blog
for Hungarian translations of Department and White House speeches and policy documents. The
embassy’s public Internet site in English and Hungarian presents official information on policy,
recent embassy programs, and has links to consular information, the U.S. Commercial Service
site, and others. During the U.S. Government shutdown, when the embassy was prohibited from
posting anything but emergency information, social media audience numbers dropped by 97
percent. The public affairs section is working hard to reconnect with its audiences.

Regional English Language Office

        The Bureau of Educational and Cultural Affairs funds a regional English language officer
and LE assistant, with responsibility for 17 countries ranging from Albania to the Baltics. The
newly arrived officer has actively consulted with the Bureau of European and Eurasian Affairs to
identify policy-priority regions where he can provide the most value. These English-teaching
programs implement the ICS priorities by conveying American values and promoting inter-
ethnic tolerance through summer language camps and other activities for Roma and other
disadvantaged Hungarian youth, as well as teachers and students from other countries.




                                       12
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Consular Management

        Embassy Budapest’s visa services operate year-round without backlogs. At the time of
the inspection, both FAST adjudicators had been at post less than 3 months. Continuous officer
training by the consular chief is thorough and emphasizes security and customer service. LE staff
members are generally well trained and dedicated. The inspection team found no major issues
concerning policy, procedure, or delivery of high-quality consular services.

        Budapest’s consular section was not rightsized after Hungary joined the Visa Waiver
program in 2008. Before the current consular chief’s arrival in 2012, the Bureau of Consular
Affairs instructed her to evaluate staffing needs and take steps to rationalize section structure and
staffing, given the substantial drop in workload after the Visa Waiver program took effect. The
subsequent rightsizing process reduced the number of locally employed staff positions from 11
to 8.

        As rightsizing progressed, the consular chief reorganized the section to redistribute duties
and streamline operations. She merged the nonimmigrant and immigrant visa units, creating new
reporting relationships. Some LE staff members were assigned to completely new duties or to
different units. In some cases, job assignments changed more than once during a 6-month period.
Each change generated new stresses and fears about job security. Furthermore, the consular chief
did not contemporaneously rewrite position descriptions and submit appropriate cases for
reclassification. In a consular section where Hungarian employees had an average of 13 years’
tenure, and staff had enjoyed long-term position stability, the scope of change within a relatively
brief time was frustrating, stressful, and demoralizing.

Recommendation 6: Embassy Budapest, in coordination with the Bureau of Consular Affairs,
should implement a final staffing plan and reporting structure for the consular section. (Action:
Embassy Budapest, in coordination with CA)

Recommendation 7: Embassy Budapest should rewrite position descriptions of the consular
staff to match new responsibilities. (Action: Embassy Budapest)

Recommendation 8: Embassy Budapest should develop individual training plans for consular
staff to eliminate gaps in substantive and procedural knowledge. (Action: Embassy Budapest)

       Informal Recommendation 6: Embassy Budapest should require the consular chief to
       establish a written strategic plan, with specific goals and benchmarks, to move the
       consular section beyond the rightsizing episode and create a solid
       organizational/operational foundation for sustained success.

The U.S. Citizen Warden System

       Embassy Budapest’s warden system has not adapted to changes in communications
capabilities. As more extensive and reliable forms of electronic communication became available
in Hungary, the role of wardens in emergency circumstances has diminished. Although a warden
system still exists, the section has not used or regularly maintained it in recent years.


                                        13
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 9: Embassy Budapest should, in coordination with the Bureau of Consular
Affairs, Office of Overseas Citizens Service, update its warden program to reflect changes in
communications capabilities. (Action: Embassy Budapest, in coordination with CA)

        The consular chief has identified the need for a comprehensive consular communication
and outreach program. This program will become very important early in 2014, when Embassy
Budapest joins the contractor-operated consular Global Support System. The Global Support
System contractor will take over responsibility for scheduling visa appointments, answering the
bulk of public visa inquiries, and returning passports and visas to applicants. The section needs a
team to handle consular outreach. The team’s mandate would be broad, including all aspects of
consular outreach, such as managing the relationship with the Global Support Services
contractor, electronic and social media, courier services, congressional and other inquiries, and
speaking engagements. The section also needs to coordinate with the public affairs section.

       Informal Recommendation 7: Embassy Budapest should create a team of consular and
       public affairs officers and locally employed staff to manage consular communications
       and outreach.

Consular Reporting

        Since the consular chief’s arrival, she has had to concentrate on section management
issues at the expense of consular reporting, except for required reports and a cable on Iranian
visa applicants. The CDA has told the consular chief he wants to see more substantive reporting
from the consular section, and she has begun to formulate a reporting plan.

       Informal Recommendation 8: Embassy Budapest should require the consular section to
       contribute to the embassy’s new reporting plan and assign drafting responsibilities among
       the consular officers.

Funding for Repatriations and Emergency Services

         The consular chief and financial management officer have disagreed over funding issues
that, in at least one case, threatened to delay a U.S. citizen’s repatriation. The consular chief
believes that unresolved issues specifically related to Bureau of Consular Affairs funding could
cause similar problems in the future. Similar issues were reported by other sections in regard to
financial operations. (See the Financial Management section of this report.)

Recommendation 10: Embassy Budapest, in coordination with the Bureau of Consular Affairs,
should develop standard operating procedures for funding emergency consular services and
repatriations. (Action: Embassy Budapest, in coordination with CA)




                                       14
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Resource Management
             Agency                   U.S.         U.S.       Foreign     Total        Total
                                     Direct-      Local-      National    Staff       Funding
                                    Hire Staff   Hire Staff    Staff                  FY 2013
Department of State
Diplomatic & Consular
Programs                                    31            0         13        44 $1,372,300.00
ICASS                                        9            9        102       120 $7,231,079.00
Public Diplomacy                             3            0         15        18 $1,022,500.00
Consular                                     3            1          8        12   $497,232.00
Diplomatic Security                          5            2         64        71   $627,146.00
Marine Security                              6            0          4        10   $211,160.00
Representation                                                                      $57,900.00
OBO                                          1            0         11        12   $514,900.00
Department of Agriculture
Foreign Agricultural Service                 0            0           1         1     $18,144.00
Department of Defense
Defense Attaché Office                      10            1           2       13     $700,000.00
Office of Defense Cooperation                4            0           2        6     $547,083.00
Department of Justice
Federal Bureau of Investigation              3            0           0         3    $364,200.00
Legal Attaché Office                         2            0           0         2    $144,600.00
International Law Enforcement
Academy                                      2            0           5         7 $3,801,408.00
U.S. Commercial Service                      2            0           4         6   $394,818.00
USAID/Office of U.S. Foreign
Disaster Assistance                          1            0           1         2   Not Serviced
Totals                                      82           13        232       327     $17,504,470

General

       Results from surveys by the International Cooperative Administrative Support Services
(ICASS) council and OIG show that the Embassy Budapest management section provides
adequate services to its customers, with scores in most areas exceeding the broader averages.
OIG inspectors identified some inefficient processes and incorrect procedures. At times, section
leadership was deficient, yielding ponderous decisionmaking and hindering collaboration among
operating units.

Supply Chain Management

        The Integrated Logistics Management System is the Department’s automated solution to
the various supply-chain functions, but Embassy Budapest is not maximizing its use. Instead, a
                                      15
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

lack of compliance with Department guidance (13 STATE 057938) and lack of collaboration
between the financial management office and the general services office have rendered the
system inefficient and weakened management controls. For example, the Department-issued
guidance reinforced and clarified the financial management office’s role as the embassy’s
designated billing office for receiving invoices. Embassy Budapest’s general services office now
performs this function, but it goes beyond simply receiving invoices. It also must carry out
several manual steps to process the invoices—stamping, signing, copying, and transmitting hard
copy documents to the financial management office—to effect payment. OIG inspectors
estimated the process adds up to 10 unnecessary steps to process each invoice. The financial
management office has the ability to print purchase orders and receiving reports directly from the
Integrated Logistics Management System which, together with the invoice, constitute the basis
for payment.

Recommendation 11: Embassy Budapest should require the financial management office to
perform all functions required as the post’s designated billing office. (Action: Embassy
Budapest)

         Other supply-chain processes have superfluous steps, such as contracting officer “initial
approval” and extra approvals within the financial management section. On the other hand,
efforts to decrease procurement cycle time have yielded significant results: average total cycle
time fell from 13.10 days in FY 2012 to 8.64 in FY 2013. The procurement unit accounted for
the largest share of the improvement, cutting 4.58 days from its average processing time.
Eliminating unnecessary steps would result in further time reductions with no diminution of
management controls.

Recommendation 12: Embassy Budapest should review its Integrated Logistics Management
System supply-chain management workflow and eliminate unnecessary steps, while maintaining
adequate internal controls. (Action: Embassy Budapest)

         Receiving, which is “the link between the procurement, property, accountability, and
certifying functions” per 14 Foreign Affairs Manual (FAM) 413.3a., is another key element of
Embassy Budapest’s supply chain that could improve. The receiving function is now passive and
responds to the physical receipt of goods. The receiving clerk does not maintain visibility or a
“due in” receiving file, as described in 14 Foreign Affairs Handbook (FAH)-1 H-313.1; as a
result, the receiving clerk does not know what or how much property is expected. This
information is essential to ensuring timely receipt of goods and following up on items that have
not been received.

Recommendation 13: Embassy Budapest should establish and monitor a “due in” receiving file.
(Action: Embassy Budapest)

Financial Management

        With the exception of cashiering, the financial management office’s ICASS customer
satisfaction ratings fell from 2012 to 2013 and are below regional and worldwide averages.
These deficiencies are due in part to the unnecessary steps in supply chain management, outlined
in the General Management section of this report, but the financial management officer’s

                                       16
                           SENSITIVE BUT UNCLASSIFIED
                                                  SENSITIVE BUT UNCLASSIFIED

      tendency to be overly cautious has resulted in disputes with customers over regulations and an
      inability to resolve issues in a timely manner.

      Status of Funds

             Review of funds management showed unliquidated obligations of $76,000 from FYs
      2010-2012, primarily for ICASS freight costs not yet invoiced. The expenditure of FY 2012
      funding for the International Law Enforcement Academy program has begun only recently, so
      bulk obligations of over $3.8 million remain unliquidated. The financial management officer is
      monitoring and will take steps to extend time for liquidation, as necessary.

      Cashiering

              The Class B cashier and two alternate Class B cashiers keep meticulous records, and
      there have been no problems with cash counts. The last cashier monitor trip report reflected the
      monitor’s opinion that some subcashier advances were too high. The facilities maintenance
      section’s subcashier has an advance in local currency equal to         nearly 20 percent of the
                                                                       [Redacted] (b) (2), [Redacted] (b) (5)



      Class B cashier’s          advance. Guidance in 4 FAH-3 H-391.1 limits the use of cash
                        [Redacted] (b) (2), [Redacted] (b) (5)



      payments in general and 4 FAH-3 H-393.4-2 requires an annual review of the adequacy of the
      cashier’s advance, taking into consideration factors such as changing cash payment
      requirements, and identifying whether greater use of electronic funds transfers is possible.
      Furthermore, the subcashier is personally accountable for this advance, creating undue liability.
      Such a large subcashier advance is not warranted when non-cash options, such as bulk
      purchasing agreements, electronic funds transfers, and purchase card payments are readily
      available in Hungary.

      Recommendation 14: Embassy Budapest should assess and determine the adequate level of
      cashier advances, placing special emphasis on reducing the volume of cash purchases and
      employing non-cash methods to reduce the Class B cashier’s and facilities maintenance
      subcashier’s advances and accountability. (Action: Embassy Budapest)
[Redacted] (b) (5)




      Voucher Processing

              Embassy Budapest sends only its travel vouchers to Global Financial Service Center
      Charleston’s Post Support Unit for processing. The financial management officer is somewhat
      reluctant to outsource the processing of other kinds of vouchers, because he is not convinced of
      its potential time savings and is hesitant to surrender control. Sending additional types of
      vouchers to the Post Support Unit would allow the financial management officer to reprogram
      one voucher examiner position to the accounting function, which he feels is understaffed. The
      financial management officer and his financial specialist have begun training one of the voucher
      examiners to become an accountant.
                                                              17
                                                  SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 10: Embassy Budapest should complete training for the
       voucher examiner and move that employee to an accountant position.

       Informal Recommendation 11: Embassy Budapest should decide which types of
       vouchers are best suited to outsourcing, and restructure staff and work processes
       accordingly.

        The inspectors noted that Financial Service Center Charleston makes salary payments
directly to official residence expense employees through electronic funds transfers. This practice
does not comply with 3 FAM 3257, which states that staff employed under official residence
expense are employees of the principal representative, not of the U.S. Government. Thus, these
employees cannot be paid directly from appropriations, U.S. Disbursing Officers, or cashiers.

Recommendation 15: Embassy Budapest should implement a policy of direct payment of
salaries to official residence expense employees by the ambassador and deputy chief of mission.
(Action: Embassy Budapest)

        Embassy Budapest’s representation policy, dating back to 2005, does not allow direct
reimbursement to vendors for representation expenses, while Department of State Standardized
Regulation 340 does allow such direct payments when certain conditions are met. Since the
embassy’s policy differs from Department regulations, misunderstandings and conflicts have
resulted and clarification is in order.

Recommendation 16: Embassy Budapest should promulgate a new representational policy, in
accordance with Department of State regulations, that allows direct payment to vendors of
representation expenses. (Action: Embassy Budapest)

International Cooperative Administrative Support Services

        The ICASS council has been hands-off in terms of the budget, generally approving what
the management counselor and financial management officer present. With few exceptions, the
council feels the services are of high quality, which is in agreement with the customer
satisfaction surveys

Lease Termination Penalty Payments

        Offices in the Budapest Bank Center building will move to the expanded chancery as
early as July 2014, which will result in lease termination penalty payments. The lease of the
Bank Center building, renegotiated in 2006, provides for penalty payments if the lease is
terminated before its February 2016 expiration date. Total penalty payments would depend on
the termination date and could include up to 2 years of lease costs. It is unclear whether the
penalties also would include building operating expenses. The total cost, based on scenarios
developed by the embassy’s management office, could amount to $1.86 million. In addition to
Department offices, occupants of the building include the Office of Foreign Disaster Assistance
and elements of the Departments of Defense, Commerce, and Agriculture. The Bureau of
Overseas Buildings Operations contends that agencies should share the cost of the penalty
payments based on the square footage of office space occupied, with the Department’s portion
estimated at 55 percent. This is a contentious issue at the embassy, with arguments centering on
                                       18
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

claimed lack of prior knowledge of the lease provision and the liability of non-Department
agencies to pay. The issue has been referred to the ICASS Working Group in Washington for
consideration and resolution.

Recommendation 17: The Bureau of the Comptroller and Global Financial Services should
determine and assign financial liability for Budapest Bank Center Building lease termination
penalty payments. (Action: CGFS)

Human Resources

        Everyone in the human resources section is performing well, under the leadership of both
the human resources specialist and the human resources officer. The atmosphere is professional
and collegial. The section has a goal of making all their files electronic, and they are well-
organized in their approach. Both existing paper files and the completed electronic files for LE
staff and Americans are in good order, but the section could organize its electronic recruitment
files more efficiently, by position, including position description, job announcement,
applications, list of qualified and unqualified applicants, documentation of interviews, and the
selection process.

       Informal Recommendation 12: Embassy Budapest should consolidate its electronic
       recruitment files.

Locally Employed Staff Services

        The LE staff compensation, local leave, and separation plans were updated on April 13,
2013, but numerous and significant changes to Hungarian labor law over the past year
necessitate revisions. Guidance in 3 FAH-2 H-212 A. specifies that compensation plans should
be based on prevailing compensation practices. The human resources specialist has prepared a
draft revision to the plan, which awaits review, including by a qualified Hungarian labor lawyer.

Recommendation 18: Embassy Budapest should engage a local labor lawyer to review its draft
locally employed staff compensation, local leave, and separation plans, in terms of recent
changes to Hungarian labor law, and submit the amended plan to the Bureau of Human
Resources for review. (Action: Embassy Budapest)

        The use of annual leave is not administered consistently across embassy sections. Some
section heads are allowing employees to take annual leave in lieu of sick leave, if they wish, and
others are denying or limiting that possibility. Guidance in 3 FAM 7111.1 requires that actions
taken and decisions made must reflect equitable and respectful treatment of affected employees.
Inconsistent administration of the annual leave program could have a negative effect on
employee morale.

Recommendation 19: Embassy Budapest should clarify its leave policy in writing and direct
supervisors to administer it fairly and consistently. (Action: Embassy Budapest)

        Thirty-one LE staff employee evaluation reports are currently overdue by 2-5 months,
resulting in 19 late within-grade increases. Human resources staff provide position descriptions
and evaluation forms to supervisors 5-6 weeks prior to the evaluation due date, but do not follow
                                       19
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

up until reports are already overdue. The LE staff does not have the clout to get some
supervisors, both LE staff and American, to complete their evaluations in a timely manner.
Implementation of a schedule and controls in accordance with 3 FAH-2 H-135.5 A.(2) and B.(1)
would result in timely processing of evaluation reports.

Recommendation 20: Embassy Budapest should require the human resources staff to
implement controls and establish a schedule to remind supervisors to submit locally employed
staff evaluations by the due dates. (Action: Embassy Budapest)

American Staff Services

        Although the community liaison office coordinator and the human resources section
provide helpful reference materials and check-in assistance to newcomers, the embassy does not
currently conduct formal orientation sessions that would serve to familiarize employees with
embassy operations, especially during the high turnover season.

       Informal Recommendation 13: Embassy Budapest should design a formal orientation
       for newcomers and hold sessions on a regular basis.

        Work requirements statements for U.S. direct-hire employees are generally completed
within 45 days of the start of the rating period, and the human resources officer closely monitors
and ensures the timeliness of employee evaluation report submissions. The embassy wisely plans
to use its newly hired eligible family member roving secretary to assist Americans in the use of
ePerformance at evaluation time.

        Embassy Budapest currently has 11 eligible family member employees, including one
expanded professional associate program employee. Procedures for establishing and filling
positions are correct and well documented.

Foreign Service National Committee

        The Foreign Service national committee has five members, who represent different
sections of the embassy. Members expressed dissatisfaction with the frequency of
communication between LE staff and embassy management and cited lack of understanding of
what effects the upcoming move to the building next to the chancery will have on their quality of
work life. The CDA plans to meet regularly with the committee; the inspectors agree with this
useful approach to strengthen communications within the embassy.

General Services

        The most recent ICASS scores for the general services office indicate strong customer
satisfaction with its wide range of functions. The office scored well above worldwide averages in
eight of nine categories. The OIG survey, administered prior to the inspection, showed an overall
general services score of 4.18, compared to 3.72 for prior posts inspected.




                                       20
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Procurement

        The procurement unit is proficient and makes good use of the Integrated Logistics
Management System in the execution of its duties, processing more than 1,700 actions in FY
2013. Its customer satisfaction score on the most recent ICASS survey was higher than regional
and worldwide averages.

Property Management

         Embassy Budapest reported in its 2013 annual property certificate a shortage of 0.21
percent of total nonexpendable inventory valued at $9.5 million, which is below the 1 percent
level that requires referral to a survey board; however, the warehouse facility lacked adequate
safeguards. The general services officer has implemented some measures to preclude
unauthorized entry and to control the movement of items in and out of the facility. These include
separating and securing the central receiving area; using a logbook to document items that are
removed from the warehouse; securing exterior doors to prevent unauthorized entry; and
restricting staff access during nonduty hours. These standard precautions minimize risk of
pilferage, [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                                       The embassy would benefit
from implementing a more robust program to secure property as specified in 14 FAM 413.7a.

Recommendation 21: Embassy Budapest should implement a plan to maintain control of stock
inventory and to strengthen safeguards and control of property. (Action: Embassy Budapest)

        Property management personnel do not always affix barcode stickers directly onto
furniture immediately upon receipt. Instead, personnel in the unit temporarily affix barcodes to
cartons until the items are removed for issuance to employees. Department guidance in 14 FAH-
1 H-316.1-2d. suggests affixing bar-code labels to items immediately upon receipt, when the
item can be inspected without taking it completely out of its carton, and when a label cannot be
properly affixed while the item is still in the carton. This practice establishes firmer control and
accountability of property, as the labels are not easily removed.

Recommendation 22: Embassy Budapest should affix bar-code labels to all items immediately
upon receipt. (Action: Embassy Budapest)

        Embassy Budapest has achieved success in forming a furniture and appliances pool. Two
outliers remain: the representative of the Bureau of Overseas Buildings Operations, whose
position will terminate upon completion of the new expanded chancery project, and the Office of
Defense Cooperation. In conformance with a Bureau of European and Eurasian Affairs initiative,
the embassy now uses a commercial firm, Staples, to provide just-in-time expendable supplies
service. As a result, the property unit has reduced significantly its stock office supplies.

Housing

        The embassy housing handbook is current, and the interagency housing board functions
well. OIG survey responses on housing maintenance and repair generated higher than average
scores. The embassy uses the Department’s standard lease and maintains a “green” status in the
Rental Benchmark Initiative program, which promotes cost-effective leases of residential
                                        21
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

properties and more efficient management of housing programs at overseas posts. The OIG
team’s spot check of lease files found them complete and in order, including documentation of
security and post occupational safety and health officer inspections.

Transportation Services

        Embassy Budapest has consolidated its motor vehicle, customs, and shipping units under
the supervision of one LE staff member, which eliminates a level of supervision with no apparent
loss in operational effectiveness. Motor vehicle services are adequate from customer satisfaction
and management perspectives. The latest ICASS survey score for motor pool was an exceptional
4.64 out of a possible 5 points. The embassy makes use of a taxi service for official business
transportation, so the number of motor pool chauffeurs has shrunk from 10 to 5 over the past
several years. The motor pool provides maintenance services for fully armored vehicles to
Embassy Bratislava.

       In October 2012 the motor pool began using the automated Fleet Management
Information System, which is adequate for the embassy’s dispatching, maintenance records, and
other vehicle operations. However, significant redundancy in documentation requirements
increases paperwork and creates the need for retaining hard-copy forms. The Fleet Management
Information System generates trip tickets that replicate almost all the information on the required
Optional Form-108, Daily Vehicle Use Record. Maintaining Optional Form-108 essentially
doubles the data entry and paper files.

Recommendation 23: The Bureau of Administration should review the dispatching
documentation required of the Fleet Management Information System and 14 FAM 430, and
eliminate requirements that are redundant and unnecessary. (Action: A)

       The embassy’s vehicle fuel program is a credit card system with two commercial
petroleum companies that provide convenient access with their many locations. The management
controls appear adequate and include review of individual receipts, comparison with driver
records, and reconciliation with monthly invoices. The financial management office requires the
transportation supervisor to submit an Excel spreadsheet, which seems excessive. Instead, the
transportation supervisor could extract the data from the Fleet Management Information System.

         Informal Recommendation 14: Embassy Budapest should review data needed to process
         fuel program invoices and eliminate redundant reporting requirements.

Travel

        A contract agent provides travel services to the embassy. The embassy reported four
instances of premium class travel in FY 2013. An OIG inspector examined the documentation
for those cases and found adequate authorization. Documentation for the premium travel was not
properly filed.

         Informal Recommendation 15: Embassy Budapest should properly maintain files that
         contain documentation related to business class travel.


                                       22
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Facilities Management/Safety, Health, and Environmental Management

       The facilities management section adequately maintains the large number of diverse
nonresidential and residential properties in the embassy inventory. General budget shortfalls
delay some facilities management projects, such as the roof and attic slab repair of a villa
(Property# 4007), which are delayed until at least 2015; in the meantime the villa is
uninhabitable.

        The major facilities project, however, is the U.S.-Hungary property exchange and
renovation of the building adjacent to the current chancery, which will become a U.S.
Government-owned property and significantly expand the chancery. As of the inspection, the
project was on schedule, with anticipated turnover of the building in April 2014, move of the
Marine security guard detachment billets into the new chancery by July 2014, and move of the
offices taking place thereafter. In a departure from the norm, a Bureau of Overseas Buildings
Operations project director liaises with the Government of Hungary’s project manager on
construction and renovation of the new building, and then will oversee the U.S. Government
contractor work after the turnover is made.

       The facilities management work order clerk is very knowledgeable about the Work
Orders for Windows application and fastidiously maintains its files. In FY 2013, the section
processed 3,544 unscheduled and 1,344 preventive maintenance work orders.

       The LE assistant post occupational safety and health officer has some prior experience in
the subject, but has not yet attended Department training. The safety committee met in May
2013. Agendas exist for two meetings scheduled in 2012, but minutes exist for only one. The
Department requires that the committee, chaired by the DCM, meet at least semiannually.

       Informal Recommendation 16: Embassy Budapest should require the safety, health, and
       environmental management committee, chaired by the deputy chief of mission, to meet at
       least semiannually.

        The LE staff safety coordinator recently assumed responsibility for driver safety training
and medical clearance records for chauffeurs and incidental drivers. The spreadsheet record was
incomplete. Of 81 total drivers, approximately half indicated they had not received safety
training and none indicated current medical clearance; both are requirements of the Department’s
Overseas Motor Vehicle Safety Management Program.

Recommendation 24: Embassy Budapest should implement a plan for safety training and
medical certification of chauffeurs and incidental drivers. (Action: Embassy Budapest)

Information Management

        The information management office is meeting the embassy’s current information
technology requirements, although the large chancery expansion project and accompanying
office moves in summer 2014 is challenging the section’s leadership. The office consistently
receives A+ ratings from the Department’s network and systems monitoring software. Recent
surveys indicate mission employees are satisfied with the customer services provided by the

                                       23
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

information management office. However, a lack of leadership oversight in several activities
keeps the section from reaching its greater potential.

       The inspection team evaluated the individual information management programs, which
include an unclassified network with approximately 300 users, a classified network, two
dedicated Internet networks, telephone, radio and cell phone programs, and classified and
unclassified pouch mail. Four Americans and 11 LE staff members provide information
management support for three office locations in Budapest.

Expanded Chancery Building

        The information management section is not adequately planning for the project to extend
the communications network infrastructure into the new chancery expansion. The information
management officer has identified some of the key deliverables but has no structured process to
track progress and identify potential problems or delays. Information management leadership
was unable to provide the OIG team with internal plans for voice and data wiring and
communications infrastructure. Structured processes and documented plans are necessary to
effectively monitor performance and take corrective action, particularly in larger projects.
Inadequate management and planning increase the risk for delays and cost overruns.

Recommendation 25: Embassy Budapest should develop a structured process to track the
progress of the information technology portion of the chancery expansion project. (Action:
Embassy Budapest)

Information Management Leadership

        The section and its activities would benefit from improved leadership oversight. The
section management does not hold regularly scheduled staff meetings. The OIG team observed
communication gaps among employees due to an inefficient flow of information. Additionally,
embassy employees are not making effective use of the State Messaging and Archive Retrieval
Toolset (SMART) program. Following proper records management ensures that important and
historical data is available in the future.

       Informal Recommendation 17: Embassy Budapest should establish regular information
       management section meetings to facilitate open communication and build team
       relationships.

       Informal Recommendation 18: Embassy Budapest should implement a policy that
       requires personnel to take the record email training and to use appropriately the State
       Messaging and Archive Retrieval Toolset.

Administrative Control

        The information management section does not have effective administrative procedures
controlling parts of its day-to-day activities. The laptop program includes all required elements,
but documentation is not centralized, inhibiting effective inventory and security controls. The
OIG team discovered a laptop requested for one day’s use had actually been on loan for more
than 2 months; the associated documents were found in a stack of unrelated paperwork.
                                       24
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Inconsistent tracking of laptops could result in their loss, as well as in a failure to install
mandatory software patches and security updates to protect government information. The OIG
team also discovered instances of departed employees who failed to check out with information
management, resulting in inactive user accounts that add unnecessary security vulnerabilities to
the network.

       Informal Recommendation 19: Embassy Budapest should implement a centralized
       laptop control, check-in, and check-out process.

       Informal Recommendation 20: Embassy Budapest should implement procedures to
       notify the information management section upon the transfer or termination of all
       employees and contractors.

Network Management

       The embassy’s network infrastructure is well maintained, but two areas require attention.
Cabling in the unclassified server room is disorganized and largely unlabeled, creating potential
for confusion and inefficiency during server maintenance. In addition, a mail server is being
maintained solely for use by the public affairs section on one of the embassy’s dedicated Internet
networks. Managing the users, software, and security for this server is an unnecessary resource
burden.

       Informal Recommendation 21: Embassy Budapest should organize and appropriately
       label the unclassified server room network cabling.

       Informal Recommendation 22: Embassy Budapest should remove the mail server from
       the dedicated Internet network connection.

Emergency Planning

        The embassy is largely up to date with its emergency planning, including emergency
destruction guidelines, operations contingency plans, and the alternate command center;
however, some other areas of emergency planning need attention. The embassy last updated the
information program center’s contingency plan in June 2012, and it contains names of departed
employees as points of contact. In addition, although the alternate command center is well
equipped with appropriate emergency communications, there is no written record of regular
testing to verify employees’ knowledge of their responsibilities during an emergency.

       Informal Recommendation 23: Embassy Budapest should update the information
       programs center contingency plan.

       Informal Recommendation 24: Embassy Budapest should conduct and document
       information management emergency plan exercises.




                                       25
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Innovative Practice: Arrivals and Departures Collaboration Database

Issue/Challenge: Information sharing and data synchronization is critical to the success of an
embassy’s mission. However, Personally Identifiable Information issues and other privacy
policies often prevent sections from synchronizing and sharing commonly gathered data.

Background: The human resources section and the housing section both need to know the
names and dates of arriving and departing personnel. The human resources section also needs the
passport numbers of these people, while the housing section does not. These factors create an
environment where the various sections gather the same information without sharing in order to
comply with privacy requirements. When common data does need to be shared across the
various sections, it does not always match up and it is difficult and time-consuming to determine
who has the correct data.

Innovative Practice: The information systems officer at Embassy Budapest created a list-based
system using Microsoft SharePoint that allows various sections to synchronize and share
commonly gathered data without violating privacy policies. Users can upload data to a list that
other sections can view, and each section has a unique view of the list that only allows them to
see the information that they need to know.

Benefit: The SharePoint-based system provides a simple-to-use interface that increases
information accuracy and protects Personally Identifiable Information.

Quality of Life
Health Unit

        The well-staffed and well-equipped health unit achieved an astounding ICASS customer
satisfaction score of 4.84 on a 5-point scale, with almost 100 respondents. Two LE staff nurses
and an administrative assistant augment the Foreign Service health practitioner. Morale and job
satisfaction is very high, and the unit is looking forward to moving to its new location when the
expanded chancery is completed. Closer proximity to its clients should increase use of health
unit services.

        Management of controlled substances is adequate. The OIG team’s spot checks of items
indicated that amounts in the logbook matched inventories. Some monthly checks were not
registered in the logbook, but the Foreign Service health practitioner has completed regular
inventories since her arrival.

Community Liaison Office

        The community liaison office also enjoyed very good ICASS customer satisfaction scores
that exceeded both regional bureau and worldwide averages. A coordinator and an assistant staff
the office, working a total of 55 hours between them. The coordinator serves on the emergency
action, post-employment, and embassy employee association committees, and was
knowledgeable on current events in each. The office extends adequate outreach to newcomers to


                                       26
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

provide information prior to arrival, and then follows up with them after arrival to welcome and
orient employees and their families.

Employee Association

       The American Embassy Employee Association operates a commissary selling duty-free
and non-duty-free goods, including alcoholic beverages. It also provides diverse services,
including sales of gas cards; homeward bound mail services; and liaison with a local carrier for
personal cellular phone service. Several times a year, the commissary does bulk shipments for
association members and provides home delivery of ordered goods. The association is in
excellent financial shape, as reflected in the 2012 independent accountant’s review report. It
donates $2,000 yearly to the community liaison function and works with the coordinator to
organize community events. The board hired a dual Hungarian/American citizen as general
manager earlier this year and the board of directors has sent her for training by the Office of
Commissary and Recreation Affairs in Frankfurt and enrolled her in bookkeeping training.

        The association charter and license agreement were last updated in 2006. The list of
services in the charter is incorrect, and the embassy has charged the association for some items
that are not included in the license agreement. The association requested the management
counselor’s assistance but he has not yet taken action. In accordance with 6 FAM 551a., the
charter must clearly describe all services the association will provide and any proposed changes
in the services provided must be submitted to the Office of Commissary and Recreation Affairs
prior to their initiation.

Recommendation 26: Embassy Budapest should update the employee association charter to
reflect services provided, review provisions of the license agreement to reflect agreement on how
to share responsibilities, and submit them to the Office of Commissary and Recreation Affairs
for approval. (Action: Embassy Budapest)


Management Controls
        The then-chief of mission submitted on July 15, 2013, the annual management control
statement of assurance, in which she expressed reasonable assurance that management control
objectives were achieved. She noted no significant deficiencies or material weaknesses. The OIG
team examined background documentation on the embassy’s assessments and analyses that
provided the basis for the determination. The embassy used in large part OIG management
functional questionnaires in its assessment.




                                       27
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Budapest should establish a periodic process to assess and
report to the Bureau of European and Eurasian Affairs and the ambassador/chargé d'affaires
progress toward meeting the goals of the Integrated Country Strategy. (Action: Embassy
Budapest)

Recommendation 2: Embassy Budapest, in coordination with the Foreign Service Institute,
School of Language Studies, should develop a plan to ensure that all officers arriving at the
embassy have the ability to carry out their duties at the designated skill level. (Action: Embassy
Budapest, in coordination with FSI)

Recommendation 3: Embassy Budapest, in coordination with the Foreign Service Institute,
School of Language Studies, should update the Hungarian consular module to reflect current
vocabulary and conversational skills. (Action: Embassy Budapest, in coordination with FSI)

Recommendation 4: Embassy Budapest should return performance-rating duties for the
environment, science, technology and health hub officer to the deputy chief of mission. (Action:
Embassy Budapest)

Recommendation 5: Embassy Budapest, in coordination with the Bureau of Oceans and
International Environmental and Scientific Affairs and the Bureau of European and Eurasian
Affairs, should create a separate budget for the environment, science, technology and health
hub’s regional travel requirements. (Action: Embassy Budapest, in coordination with OES and
EUR)

Recommendation 6: Embassy Budapest, in coordination with the Bureau of Consular Affairs,
should implement a final staffing plan and reporting structure for the consular section. (Action:
Embassy Budapest, in coordination with CA)

Recommendation 7: Embassy Budapest should rewrite position descriptions of the consular
staff to match new responsibilities. (Action: Embassy Budapest)

Recommendation 8: Embassy Budapest should develop individual training plans for consular
staff to eliminate gaps in substantive and procedural knowledge. (Action: Embassy Budapest)

Recommendation 9: Embassy Budapest should, in coordination with the Bureau of Consular
Affairs, Office of Overseas Citizens Service, update its warden program to reflect changes in
communications capabilities. (Action: Embassy Budapest, in coordination with CA)

Recommendation 10: Embassy Budapest, in coordination with the Bureau of Consular
Affairs, should develop standard operating procedures for funding emergency consular services
and repatriations. (Action: Embassy Budapest, in coordination with CA)

Recommendation 11: Embassy Budapest should require the financial management office to
perform all functions required as the post’s designated billing office. (Action: Embassy
Budapest)


                                       28
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 12: Embassy Budapest should review its Integrated Logistics Management
System supply-chain management workflow and eliminate unnecessary steps, while maintaining
adequate internal controls. (Action: Embassy Budapest)

Recommendation 13: Embassy Budapest should establish and monitor a “due in” receiving
file. (Action: Embassy Budapest)

Recommendation 14: Embassy Budapest should assess and determine the adequate level of
cashier advances, placing special emphasis on reducing the volume of cash purchases and
employing non-cash methods to reduce the Class B cashier’s and facilities maintenance
subcashier’s advances and accountability. (Action: Embassy Budapest)

Recommendation 15: Embassy Budapest should implement a policy of direct payment of
salaries to official residence expense employees by the ambassador and deputy chief of mission.
(Action: Embassy Budapest)

Recommendation 16: Embassy Budapest should promulgate a new representational policy, in
accordance with Department of State regulations, that allows direct payment to vendors of
representation expenses. (Action: Embassy Budapest)

Recommendation 17: The Bureau of the Comptroller and Global Financial Services should
determine and assign financial liability for Budapest Bank Center Building lease termination
penalty payments. (Action: CGFS)

Recommendation 18: Embassy Budapest should engage a local labor lawyer to review its
draft locally employed staff compensation, local leave, and separation plans, in terms of recent
changes to Hungarian labor law, and submit the amended plan to the Bureau of Human
Resources for review. (Action: Embassy Budapest)

Recommendation 19: Embassy Budapest should clarify its leave policy in writing and direct
supervisors to administer it fairly and consistently. (Action: Embassy Budapest)

Recommendation 20: Embassy Budapest should require the human resources staff to
implement controls and establish a schedule to remind supervisors to submit locally employed
staff evaluations by the due dates. (Action: Embassy Budapest)

Recommendation 21: Embassy Budapest should implement a plan to maintain control of stock
inventory and to strengthen safeguards and control of property. (Action: Embassy Budapest)

Recommendation 22: Embassy Budapest should affix bar-code labels to all items immediately
upon receipt. (Action: Embassy Budapest)

Recommendation 23: The Bureau of Administration should review the dispatching
documentation required of the Fleet Management Information System and 14 FAM 430, and
eliminate requirements that are redundant and unnecessary. (Action: A)

Recommendation 24: Embassy Budapest should implement a plan for safety training and
medical certification of chauffeurs and incidental drivers. (Action: Embassy Budapest)


                                       29
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 25: Embassy Budapest should develop a structured process to track the
progress of the information technology portion of the chancery expansion project. (Action:
Embassy Budapest)

Recommendation 26: Embassy Budapest should update the employee association charter to
reflect services provided, review provisions of the license agreement to reflect agreement on how
to share responsibilities, and submit them to the Office of Commissary and Recreation Affairs
for approval. (Action: Embassy Budapest)




                                       30
                           SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


        List of Informal Recommendations
                Informal recommendations cover operational matters not requiring action by
        organizations outside the inspected unit and/or the parent regional bureau. Informal
        recommendations will not be subject to the OIG compliance process. However, any subsequent
        OIG inspection or on-site compliance review will assess the mission’s progress in implementing
        the informal recommendations.

        Informal Recommendation 1: Embassy Budapest should implement a missionwide reporting
        plan tied to its strategic priorities.

        Informal Recommendation 2: Embassy Budapest should institute a process for apportioning
        mission travel and representational funds to sections, based on section travel and representational
        plans approved by the deputy chief of mission and tied to the embassy’s strategic priorities.

        Informal Recommendation 3: Embassy Budapest should relate the work requirements of all
        U.S. direct-hire staff to its strategic priorities.

        Informal Recommendation 4: Embassy Budapest should expand the breadth and depth of its
        political/economic reporting to reflect the range of bilateral and regional issues of importance to
        Washington consumers.

        Informal Recommendation 5: Embassy Budapest should publicize the speakers program
        throughout the mission, post clear information online, and encourage all American staff to
        participate.

        Informal Recommendation 6: Embassy Budapest should require the consular chief to establish
        a written strategic plan, with specific goals and benchmarks, to move the consular section
        beyond the rightsizing episode and create a solid organizational/operational foundation for
        sustained success.

        Informal Recommendation 7: Embassy Budapest should create a team of consular and public
        affairs officers and locally employed staff to manage consular communications and outreach.

        Informal Recommendation 8: Embassy Budapest should require the consular section to
        contribute to the embassy’s new reporting plan and assign drafting responsibilities among the
        consular officers.
[Redacted] (b) (5)




        Informal Recommendation 10: Embassy Budapest should complete training for the voucher
        examiner and move that employee to an accountant position.

        Informal Recommendation 11: Embassy Budapest should decide which types of vouchers are
        best suited to outsourcing, and restructure staff and work processes accordingly.


                                               31
                                   SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 12: Embassy Budapest should consolidate its electronic
recruitment files.

Informal Recommendation 13: Embassy Budapest should design a formal orientation for
newcomers and hold sessions on a regular basis.

Informal Recommendation 14: Embassy Budapest should review data needed to process fuel
program invoices and eliminate redundant reporting requirements.

Informal Recommendation 15: Embassy Budapest should properly maintain files that contain
documentation related to business class travel.

Informal Recommendation 16: Embassy Budapest should require the safety, health, and
environmental management committee, chaired by the deputy chief of mission, to meet at least
semiannually.

Informal Recommendation 17: Embassy Budapest should establish regular information
management section meetings to facilitate open communication and build team relationships.

Informal Recommendation 18: Embassy Budapest should implement a policy that requires
personnel to take the record email training and to use appropriately the State Messaging and
Archive Retrieval Toolset.

Informal Recommendation 19: Embassy Budapest should implement a centralized laptop
control, check-in, and check-out process.

Informal Recommendation 20: Embassy Budapest should implement procedures to notify the
information management section upon the transfer or termination of all employees and
contractors.

Informal Recommendation 21: Embassy Budapest should organize and appropriately label the
unclassified server room network cabling.

Informal Recommendation 22: Embassy Budapest should remove the mail server from the
dedicated Internet network connection.

Informal Recommendation 23: Embassy Budapest should update the information programs
center contingency plan.

Informal Recommendation 24: Embassy Budapest should conduct and document information
management emergency plan exercises.




                                      32
                          SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                       Name       Arrival Date
Ambassador                                            Vacant
Deputy Chief of Mission                      Andre Goodfriend        08/15/2013
Chiefs of Sections:
 Management                                       Eric Kettner       07/08/2011
 Consular                                      Meghan Moore          08/01/2012
 Political                                        Robert Riley       08/06/2012
 Economic (Unit)                                    Jay Heung        09/01/2011
 Public Affairs                           Karyn Posner-Mullen        07/26/2012
 Regional Security                              James Gayhart        06/22/2012
 ESTH                                             Raffi Balian       09/27/2013
Other Agencies:
 Foreign Agricultural Service                  Paul A. Spencer   Based in Berlin
 Legal Attaché                                 Gregory Shaffer      08/01/2011
 Office of Defense Cooperation           COL Timothy Manning        07/18/2013
 International Law Enforcement Academy           John Terpinas      07/25/2011
 Department of Defense                        COL Mark Karas        08/06/2012
 Foreign Commercial Service                     Robert Peaslee      08/07/2009
 USAID/Office of U.S. Foreign
 Disaster Assistance                                Jack Myer        08/18/2009




                                    33
                        SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
CDA              Chargé d'affaires

DCM              Deputy chief of mission

Department       U.S. Department of State

ESTH             Environment, science, technology, and health

FAH              Foreign Affairs Handbook

FAM              Foreign Affairs Manual

FAST             First- and second-tour

ICASS            International Cooperative Administrative Support Services

ICS              Integrated Country Strategy

LE               Locally employed

NATO             North Atlantic Treaty Organization

OIG              Office of Inspector General

USAID            U.S. Agency for International Development




                            34
                SENSITIVE BUT UNCLASSIFIED
 SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




 SENSITIVE BUT UNCLASSIFIED
